TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Efforts to Collect Delinquent Employment
                      Taxes Owed by Government Entities
                               Could Be Improved



                                         August 27, 2007

                              Reference Number: 2007-10-166




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 27, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Efforts to Collect Delinquent Employment Taxes
                             Owed by Government Entities Could Be Improved
                             (Audit # 200610034)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) has implemented an effective process to collect delinquent employment taxes and secure
 delinquent returns owed by Federal, State, and local government entities. This audit was
 requested by the IRS Chief Financial Officer.

 Impact on the Taxpayer
 Government entities, including those in the Federal Government, are not exempt from meeting
 employment tax deposit and reporting requirements. As of December 2006, Federal Government
 entities owed approximately $45 million in delinquent employment taxes. Additional emphasis
 is needed in three key areas related to the IRS’ efforts to resolve these types of delinquencies. It
 is critical to the image of the United States that Federal Government entities be held to the same
 standards as private employers. In addition, the delivery of essential services by State and local
 government entities, such as school districts, could be adversely affected if employment tax
 delinquencies by these entities are not addressed timely.

 Synopsis
 The IRS has enhanced its efforts to address delinquent employment taxes owed by government
 entities in multiple areas. For example, three different IRS functional offices (the Tax Exempt
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved



and Government Entities (TE/GE) Division, the Small Business/Self-Employed (SB/SE)
Division, and the Office of the Chief Financial Officer) formed a working group to discuss ways
to address Federal Government entity employment tax delinquencies. In addition, beginning in
June 2005, the SB/SE Division, which is responsible for seeking repayment and securing past
due tax returns from delinquent entities including government entities, established a special unit
at the Brookhaven Campus1 in Holtsville, New York, to address Federal Government entity tax
delinquency cases. This unit was established to work directly with delinquent Federal
Government agencies to reduce the taxes due through payments, filing of tax returns, and
corrections to accounts, as necessary. For State and local government entity delinquencies, the
SB/SE Division uses standard collection processes and enforcement tools to collect the
delinquencies. As of January 2007, delinquent State and local government entity accounts
totaling $254 million were assigned to the SB/SE Division Collection Field function2 for
resolution. These collection services are provided pursuant to a Memorandum of Understanding
between the SB/SE and TE/GE Divisions.
In our opinion, this coordinated approach represents a marked increase in emphasis since the last
time we reviewed this area. Specifically, in 2002, we reported3 that the TE/GE Division did not
have an effective agreement with the SB/SE Division to provide for allocation of the resources
necessary to help ensure government entities complied with Federal tax requirements for the
submission of tax returns and related payments.
Despite these efforts, the IRS needs to take additional actions in three key areas to effectively
address government entity employment tax delinquencies. First, efforts to identify and address
the causes of government entity tax delinquencies need to be expanded. For example, the special
unit established at the Brookhaven Campus does not routinely track information regarding how
these cases are resolved (e.g., was the money collected or the account adjusted) or gather data
during the collection process on the causes of the delinquencies.
Second, controls over case processing and the administration of enforcement actions on
government entity delinquency cases need to be strengthened. At the time of our review, the
Brookhaven Campus lacked comprehensive guidelines and procedures to guide the assignment,
control, and resolution of Federal Government entity cases. As a result, the Brookhaven Campus
could not determine the exact receipt/assignment date or current status of balance-due and
delinquent-return cases in its inventory. Information gathering on State and local government
entity delinquency trends is similarly minimal despite an IRS procedure requiring that, prior to

1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. An Area Office is a geographic organizational level used by IRS
business units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
3
  Additional Management Actions Should Be Taken to Ensure That Government Entities’ Customers Meet Their
Federal Tax Obligations (Reference Number 2002-10-123, dated September 2002).
                                                                                                                       2
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved



pursuing collection actions against government entities, revenue officers and/or their managers
contact the Federal, State, and Local Governments (FSLG) office Specialist designated for their
respective offices. Our review of 133 State and local government entity delinquency cases
assigned to revenue officers indicated this procedure was followed in only 7 cases.
Finally, the IRS needs to develop alternative strategies to address delinquent Federal
Government entity accounts that the Brookhaven Campus could not readily resolve. In general,
Federal Government agencies cannot use current year funding to satisfy prior year debts, and
prior year funding is often limited at the start of a new fiscal year.
Our review of the inventory of Federal Government entity delinquent tax cases located at the
Brookhaven Campus as of December 2006 indicated 99 entities owing $5.8 million had
been assigned for resolution for more than 1 year. The IRS informed us it plans to perform an
onsite review of a sample of aged delinquencies to gain a better understanding of the reasons
why these entities are unable to timely resolve their outstanding tax debts.

Recommendations
We recommended the Director, Collection, SB/SE Division, in coordination with the Director,
FSLG, TE/GE Division, develop a methodology for recording and sharing information regarding
case resolution actions and causes of all Federal Government entity delinquencies; reinforce IRS
procedures requiring revenue officers or their managers to contact FSLG office Specialists prior
to pursuing collection actions against government entities and explore the feasibility of preparing
a quarterly report of new State and local government entities assigned to the Collection Field
function; ensure comprehensive guidelines and procedures are developed to guide the
assignment, control, and resolution of Federal Government entity cases; reinforce existing IRS
procedures regarding issuance of a final notice of the intent to levy4 to a State or local
government entity; and continue ongoing efforts to develop a process for resolving aged
delinquent Federal entity accounts.

Response
IRS management agreed with our recommendations. A new database has been developed to
capture the causes and case resolutions for all open and closed Federal Government delinquency
cases worked by the Brookhaven Campus special unit and a process will be created to share this
information with the FSLG office. The SB/SE Division will also work with the TE/GE Division
to create a single point of contact within the FSLG office for revenue officers and determine the
content, creation, delivery, and use of a quarterly report of new State and local government

4
 A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
                                                                                                                         3
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved



entities assigned to the Collection Field function. Additionally, the development of the new
database allows for complete inventory management, in-process case monitoring, and the
inclusion of a current compliance indicator. The SB/SE Division will also issue a memorandum
to remind and inform revenue officers of their notification requirements regarding issuing a final
notice of the intent to levy to a State or local government entity. Finally, SB/SE Division
analysts continue to review current procedures, identify obstacles, explore alternative procedures
and case processes, and identify opportunities for improvement to resolve these cases. Once this
analysis is completed, the team will create a report and present its findings and recommendations
to IRS executives for consideration. Management’s complete response to the draft report is
included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Nancy
Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                                 4
                           Efforts to Collect Delinquent Employment Taxes Owed by
                                    Government Entities Could Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review .............................................................................................. Page 3
          Efforts to Collect Delinquent Employment Taxes Owed by
          Government Entities Have Been Enhanced..................................................Page 3
          Efforts to Identify and Address the Causes of Government Entity
          Tax Delinquencies Need to Be Expanded ....................................................Page 4
                    Recommendations 1 and 2: ................................................Page 5

          Controls Over Case Processing and the Administration of
          Enforcement Actions on Government Entity Delinquency Cases
          Need to Be Strengthened ..............................................................................Page 6
                    Recommendations 3 and 4: ................................................Page 7

          Alternative Strategies Need to Be Developed to Address Delinquent
          Federal Government Entity Accounts That the Brookhaven Campus
          Could Not Readily Resolve ..........................................................................Page 7
                    Recommendation 5: .........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        Efforts to Collect Delinquent Employment Taxes Owed by
                 Government Entities Could Be Improved




                     Abbreviations

CFO              Chief Financial Officer
FSLG             Federal, State, and Local Governments
IRS              Internal Revenue Service
SB/SE            Small Business/Self-Employed
TE/GE            Tax Exempt and Government Entities
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved




                                             Background

Government entities, including those in the Federal Government, are not exempt from meeting
employment tax deposit and reporting requirements. According to the Internal Revenue Service
(IRS), 86,000 Federal, State, and local government entities in the United States are involved, as
employers, in Federal employment tax withholding and wage reporting. Although this segment
comprises a relatively small portion of the almost 6 million total employment tax filers, Federal,
State and Local Governments (FSLG) office customers file and pay employment taxes for their
more than 23 million employees (20 percent of the United States workforce). FSLG office
customers pay wages in excess of $760 billion and employment taxes in excess of $200 billion
annually.
The Tax Exempt and Government Entities (TE/GE) Division has primary responsibility for
employment tax returns filed by TE/GE Division taxpayers. The FSLG office within the
TE/GE Division has primary responsibility for ensuring employment tax returns are accurately
filed and paid by Federal Government entities, United States possessions, State and local
government entities, and quasi-governmental entities. The FSLG office focuses on assisting
government entities in understanding their tax obligations, identifying compliance issues, and
correcting noncompliance through its compliance program and customer education and outreach
programs. The FSLG office is also responsible for conducting compliance checks1 and
examinations2 of government entity tax returns. If government entities do not timely file or pay
employment tax obligations, the Small Business/Self-Employed (SB/SE) Division is responsible
for seeking repayment and securing past due tax returns.
In a previous audit report,3 we identified that the TE/GE Division did not have an effective
agreement with the SB/SE Division to ensure government entities complied with Federal tax
requirements for the submission of tax returns and related payments. That report identified more
than 12,000 Federal, State, and local government entities as delinquent in Calendar Years 1999,
2000, and 2001. Additional analysis of these entities showed 2,697 entities had not submitted
their required tax payments and 1,604 entities had not submitted their required tax returns.



1
  A compliance check is a voluntary contact with a government entity that involves a review of its filed information
and tax returns; this check does not relate to determining a tax liability for any particular period. The compliance
check is a tool to help educate government entities about their reporting requirements and increase voluntary
compliance.
2
  An examination is an inspection of an individual’s or an entity’s books and records. In addition, an examination
involves the questioning of witnesses to determine the individual’s or entity’s correct tax liability.
3
  Additional Management Actions Should Be Taken to Ensure That Government Entities’ Customers Meet Their
Federal Tax Obligations (Reference Number 2002-10-123, dated September 2002).
                                                                                                             Page 1
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved



Currently, the SB/SE Division provides collection services to the TE/GE Division under a
5-year Memorandum of Understanding effective through Fiscal Year 2011. Under this
Memorandum, the SB/SE Division is responsible for providing services for the resolution of
government entity collection cases and calculation of the performance measures used to evaluate
the effectiveness of the collection program. Such measures include the number of TE/GE
Division taxpayer records entering the SB/SE Division Collection Field function4 and the number
of TE/GE Division taxpayer records resolved.
This review was performed at the Detroit, Michigan; New York, New York; and Nashville,
Tennessee, SB/SE Division Area Offices; the Brookhaven Campus5 in Holtsville, New York; the
IRS National Headquarters in the SB/SE Division, in New Carrollton, Maryland; and the Office
of the Chief Financial Officer (CFO) in Washington, D.C., during the period July 2006 through
March 2007. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. An Area Office is a geographic organizational level used by IRS
business units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
5
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 2
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved




                                 Results of Review

Efforts to Collect Delinquent Employment Taxes Owed by
Government Entities Have Been Enhanced
The IRS has enhanced its efforts to address delinquent employment taxes owed by government
entities in several areas. For example, three different IRS functional offices (the TE/GE
Division, the SB/SE Division, and the CFO) formed a working group to discuss ways to address
Federal Government agency employment tax delinquencies. Additionally, in June 2005, the
CFO issued letters to the CFOs of each Federal Government agency that owed employment taxes
in an attempt to inform senior-level management of the taxes owed and resolve the delinquencies
at the agency level. Finally, beginning in June 2005, the SB/SE Division established a special
unit in the Brookhaven Campus to address Federal Government entity tax delinquency cases.
This unit was established to work directly with delinquent Federal Government agencies to
reduce the tax due through payments, filing of tax returns, and corrections to accounts, as
necessary. As of December 2006, approximately $45 million in delinquent employment taxes
related to Federal Government entities was assigned to the Brookhaven Campus for resolution.
It is critical to the image of the United States that Federal Government entities be held to the
same standards as private employers.
Delinquent employment taxes owed by State and local government entities are addressed by the
SB/SE Division using standard collection processes. As of January 2007, delinquent State and
local government entity accounts totaling $254 million were assigned to the SB/SE Division
Collection Field function for resolution. The IRS informed us that, in comparison, almost
$6 billion in delinquent business employment taxes was assigned to the Collection Field function
as of January 2007. Collection services are provided pursuant to a Memorandum of
Understanding between the SB/SE and TE/GE Divisions.
In our opinion, this approach represents a marked increase in emphasis since the last time we
reviewed this area. Specifically, in 2002, we reported that the TE/GE Division did not have an
effective agreement with the SB/SE Division to provide for allocation of the resources necessary
to help ensure government entities complied with Federal tax requirements for the submission of
tax returns and related payments.
Despite these efforts, the IRS needs to take additional actions in three key areas to effectively
address government entity employment tax delinquencies. Specifically, the IRS needs to:




                                                                                              Page 3
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved



   1. Expand efforts to identify and address the causes of government entity employment tax
      delinquencies.
   2. Strengthen controls over case processing and administration of enforcement actions on
      government entity cases.
   3. Develop alternative strategies to address delinquent Federal Government entity accounts
      that the Brookhaven Campus cannot readily resolve.

Efforts to Identify and Address the Causes of Government Entity Tax
Delinquencies Need to Be Expanded
Although the IRS has expanded its efforts to collect delinquent employment taxes owed by
government entities, progress in identifying and addressing the causes of these delinquencies has
been limited. For example, the special unit established at the Brookhaven Campus to address
Federal Government entity delinquencies does not routinely track information regarding how
these cases are resolved or gather data during the collection process on the causes of the
delinquencies. Without this type of information, the IRS cannot effectively identify taxpayer
knowledge gaps and direct its outreach and education efforts. Federal Government entity tax
delinquencies represent an ongoing problem for the IRS and, in our opinion, cannot be
effectively addressed without reliable trend information regarding the causes of these
delinquencies. During the first quarter of Fiscal Year 2007, approximately $8.5 million in new
delinquencies from 51 Federal Government entities were assigned to the Brookhaven Campus.
However, we were unable to readily determine the amount collected by the Brookhaven Campus
from resolved Federal Government entity cases during this period because the IRS does not
routinely track this type of information.
Information gathered regarding State and local government entity delinquency trends is similarly
minimal despite an IRS procedure requiring that, prior to pursuing collection actions against
government entities, revenue officers and/or their managers contact the FSLG office Specialist
designated for their respective offices. Our review of 133 State and local delinquency cases
assigned to revenue officers indicated this procedure was followed in only 7 cases. FSLG office
Specialists serve as a point of contact for their customers and work with government entities to
help bring those entities into compliance. Without these contacts by the SB/SE Division, FSLG
office Specialists have no way of readily determining which State and local government entities
in their geographic areas of responsibility are assigned to the Collection Field function for
resolution of outstanding tax delinquencies. As discussed previously, delinquent State and local
government entity accounts totaling $254 million were assigned to the SB/SE Collection Field
function for resolution as of January 2007.
The primary cause for the lack of useful trend information regarding government entity
delinquencies is a lack of recording and sharing of information between the SB/SE Division and
the TE/GE Division. We also found that not all SB/SE Division field-level collection managers

                                                                                          Page 4
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved



were aware of the requirement to contact the FSLG office Specialists when working State and
local government entity delinquencies. The collection and analysis of reliable trend data related
to government entity delinquencies would help both Divisions in their efforts to address
noncompliance of this taxpayer segment through sound planning, management, and oversight.

Recommendations
Recommendation 1: The Director, Collection, SB/SE Division, in coordination with the
Director, FSLG, TE/GE Division, should develop a methodology for recording and sharing
information regarding case resolution actions and causes of all Federal Government entity
delinquencies processed by the Brookhaven Campus, to allow the FSLG office to better focus
outreach and education efforts for this taxpayer segment.
       Management’s Response: IRS management agreed with this recommendation. A
       new database has been developed that captures the causes and case resolutions for all
       open and closed Federal Government delinquency cases worked by the Brookhaven
       Campus special unit. Also, SB/SE Division Collection Policy and Campus analysts will
       create a process to share this information with the FSLG office for the purpose of
       enabling the FSLG office to focus outreach and educational efforts for this taxpayer
       segment.
Recommendation 2: The Director, Collection, SB/SE Division, should 1) reinforce IRS
procedures requiring that revenue officers and/or their managers contact FSLG office Specialists
designated for their respective offices prior to pursuing collection actions against government
entities and 2) work with the FSLG office to explore the feasibility of preparing a quarterly
report of new State and local government entities assigned to the Collection Field function. The
report would help ensure FSLG office Specialists are aware of new State and local government
entity delinquencies and provide useful nationwide trend information regarding these types of
cases. This report could also serve as a supplemental notice if revenue officers do not always
contact the FSLG office Specialists.
       Management’s Response: IRS management agreed with this recommendation.
       The SB/SE Division will work with the TE/GE Division to simplify the notification
       process by creating a single point of contact in the FSLG office for revenue officers.
       Additionally, the SB/SE Division and the TE/GE Division FSLG office will meet to
       determine the content, creation, delivery, and use of a quarterly report of new State and
       local government entities assigned to the Collection Field function.




                                                                                           Page 5
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved



Controls Over Case Processing and the Administration of
Enforcement Actions on Government Entity Delinquency Cases Need
to Be Strengthened
Our review of a random sample of 133 State and local government and 42 Federal Government
entity delinquency cases identified 3 areas in which controls over the processing of these types of
cases needs to be improved. Specifically, we found:
    •    In 22 (52 percent) of the 42 Federal Government entity delinquency cases, the
         Brookhaven Campus focused only on assigned delinquencies and did not evaluate the
         taxpayers’ current compliance with their tax obligations as part of its research or
         correspondence/contacts with taxpayers. In 3 (14 percent) of the 22 cases, the taxpayers
         had not filed 1 or more required returns and/or made required Federal tax deposits.
    •    In 42 (89 percent) of the 47 State and local government entity cases for which a final
         notification letter informing the taxpayer of the IRS’ intention to levy6 was issued, the
         revenue officer did not notify the Territory manager,7 as required, before issuing the final
         notification letter. In eight of these cases, a levy was subsequently filed against the
         taxpayer.
    •    In 19 (14 percent) of the 133 State and local government entity cases and 7 (17 percent)
         of the 42 Federal Government entity delinquency cases, we identified periods of
         significant inactivity after the cases had been assigned. The periods of inactivity ranged
         from 84 days to more than 1 year.
The Brookhaven Campus, which assumed responsibility for addressing Federal Government
entity tax delinquency cases in June 2005, did not consistently address unfiled employment tax
returns (including both current and prior year returns) until after June 2006. Prior to June 2006,
cases in which a Federal Government entity was under investigation for not filing one or more
required tax returns were not assigned for resolution. As of December 2006, 143 Federal
Government entities still had not filed 750 required tax returns. Over 95 percent of the 750 tax
returns not filed related to employment taxes.
Finally, management information regarding Federal Government entity cases assigned to the
Brookhaven Campus special unit is not sufficiently comprehensive to allow for effective
oversight of this critical process. For example, at the time of our review, it was difficult to
readily determine from available management information the exact receipt/assignment date or
current status of the Federal Government entity balance-due and delinquent-return cases assigned
to the special unit at the Brookhaven Campus.

6
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance-due accounts that are not being voluntarily paid.
7
  A Territory Manager is a second-level manager who oversees groups in a geographic area.
                                                                                                                Page 6
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved



In general, the conditions we identified are attributable to a lack of comprehensive guidelines
and procedures to guide the assignment, control, and resolution of Federal Government entity
cases. In addition, not all Collection Field function managers we interviewed were aware that
revenue officers on their staff were required to notify the SB/SE Division Territory manager
before issuing the Final Notice letter to a government entity. This notification requirement
ensures Collection Field function management is timely informed of planned collection actions
involving government entities, including potentially sensitive entities such as school districts or
rescue worker retirement funds.
The maintenance of accurate data regarding case assignment and actions is essential to the
effective management of work-in-process at the Brookhaven Campus. In addition, addressing
the filing of current returns as part of the processing of Federal Government entity delinquencies
will assist these Federal Government entities in avoiding future delinquencies.

Recommendations
Recommendation 3: The Director, Collection, SB/SE Division, should ensure
comprehensive guidelines and procedures are developed to guide the assignment, control, and
resolution of Federal Government entity delinquency cases. These procedures should at a
minimum: 1) establish a reliable methodology for controlling assigned cases and monitoring the
status of in-process work and 2) include a requirement that a determination of current
compliance with tax obligations be made on all assigned cases.
       Management’s Response: IRS management agreed with this recommendation. A
       new database has been developed which allows for complete inventory management,
       monitoring of in-process cases, and the inclusion of a current compliance indicator.
Recommendation 4: The Director, Collection, SB/SE Division, should reinforce existing IRS
procedures requiring that revenue officers notify the appropriate SB/SE Division Territory
manager before issuing a final notice of the intent to levy to a State or local government entity.
       Management’s Response: IRS management agreed with this recommendation. The
       SB/SE Division will review this notification procedure and determine if any changes are
       needed prior to reinforcing the existing procedures. A memorandum will be issued to
       remind revenue officers of the notification requirement and/or to inform them of any
       changes.

Alternative Strategies Need to Be Developed to Address Delinquent
Federal Government Entity Accounts That the Brookhaven Campus
Could Not Readily Resolve
The collection of aged debts from Federal Government entities represents a unique challenge to
the IRS because, in general, Federal Government agencies cannot use current funding to satisfy
                                                                                              Page 7
                    Efforts to Collect Delinquent Employment Taxes Owed by
                             Government Entities Could Be Improved



debts properly chargeable to a prior year. In addition, prior year funding is often limited and
generally remains open for only 5 years.
Our review of the inventory of Federal Government entity delinquent tax cases located at the
Brookhaven Campus as of December 2006 indicated 99 entities owing $5.8 million had been
assigned for resolution for more than 1 year. More than $1 million of the $5.8 million related to
tax years 2001 and earlier. As discussed previously, as of December 2006, 143 Federal
Government entities still had not filed 750 required tax returns. Further, 466 (62 percent) of the
750 unfiled returns related to tax periods at least 3 years old. The continued existence of
significantly aged delinquent Federal Government entity accounts, despite the IRS’ repeated
attempts to secure repayment, raises the possibility that these entities may simply not have the
funding available to satisfy these delinquencies.
At the time of our review, the IRS lacked a viable methodology for addressing aged Federal
Government entity delinquencies that the Brookhaven Campus cannot readily resolve. Further,
IRS policy prohibits the use of enforcement actions, such as the filing of liens or levies, against
Federal entities. Thus, the ability of the IRS to enforce collection of delinquent taxes from
Federal Government entities is limited. The IRS informed us it plans to perform an onsite
review of a sample of aged delinquencies, to gain a better understanding of the reasons why
these entities are unable to timely resolve their outstanding tax debts. This onsite review is
tentatively scheduled for late in Fiscal Year 2007.

Recommendation
Recommendation 5: The Director, Collection, SB/SE Division, should continue ongoing
efforts to develop a process for resolving aged delinquent Federal Government entity accounts.
       Management’s Response: IRS management agreed with this recommendation.
       SB/SE Division analysts continue to review current procedures, identify obstacles,
       explore alternative procedures and case processes, and identify opportunities for
       improvement to resolve these cases. Once this analysis is completed, the team will create
       a report and present its findings and recommendations to IRS executives for
       consideration.




                                                                                              Page 8
                        Efforts to Collect Delinquent Employment Taxes Owed by
                                 Government Entities Could Be Improved



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has implemented an effective process to
collect delinquent employment taxes and secure delinquent returns owed by Federal, State, and
local government entities. To accomplish this objective, we:
I.       Determined whether the IRS has developed a coordinated national strategy for addressing
         government entity employment tax delinquencies.
         A. Interviewed appropriate TE/GE Division, SB/SE Division, and CFO personnel to
            obtain their perspectives regarding barriers to the timely collection of delinquent
            employment taxes owed by Federal, State, and local government entities.
         B. Ascertained whether the roles and responsibilities of the TE/GE and SB/SE Divisions
            and Office of the CFO in collecting delinquent employment taxes owed by Federal,
            State, and local government entities are clearly identified in a current Memorandum
            of Understanding and are adequate for ensuring effective oversight.
II.      Ascertained whether field-level controls are effective to ensure government entity
         employment tax delinquencies are resolved timely and effectively.
         A. Identified and selected random samples of in-process cases from three randomly
            selected SB/SE Division Collection Area Offices1 and the Brookhaven Campus2 in
            Holtsville, New York. Seven SB/SE Division Area Offices maintain responsibility
            for domestic taxpayers. To reduce the possibility of introducing bias factors into our
            sample, in July 2006 we chose a random sample of 133 State and local government
            entity cases from the population of 873 cases in the SB/SE Division Collection Field
            function offices.3 These cases were residing in the Integrated Collection System at
            the time our sample was selected (the total population of government entity cases at
            this time was 926). From 2 current inventory lists containing 506 total Federal
            Government entity cases provided by the Brookhaven Campus special unit, we chose
            a random sample of 42 cases.



1
  A geographic organizational level used by IRS business units and offices to help their specific types of taxpayers
understand and comply with tax laws and issues.
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns.
                                                                                                             Page 9
                       Efforts to Collect Delinquent Employment Taxes Owed by
                                Government Entities Could Be Improved



        B. Reviewed the selected cases to determine whether adequate and effective efforts were
           taken to resolve the delinquencies and secure any delinquent returns.
        C. Interviewed selected SB/SE Division Collection Field function managers to obtain
           their input/concerns regarding the IRS’ current approach to collecting delinquent
           employment taxes from government entities.
        D. Interviewed selected field office managers from the FSLG office to obtain their
           input/concerns regarding the FSLG office’s efforts within the IRS’ current approach
           to collecting delinquent employment taxes from government entities.
        E. Identified the total current population of all FSLG office entities with delinquencies
           and stratified the results by the collection status of the delinquencies. For this
           analysis, we made a Master File4 data request in December 2006. To validate the
           reliability of the electronic data extracted, we compared it to SB/SE Division
           Collection Field function inventory contained on the Integrated Collection System
           and inventory lists maintained by the CFO. We determined the reliability of the
           electronic data was adequate and valid for use in making analytical conclusions. We
           relied on information provided by the IRS regarding total employment tax filers, total
           FSLG entities involved as employers, and total delinquent business employment
           taxes. We did not verify the accuracy of this information.
III.    Determined the effectiveness of the CFO’s efforts to assist in the resolution of
        government entity employment tax delinquencies.
        A. Interviewed selected CFO personnel to obtain their input/concerns regarding the IRS’
           current approach to collecting delinquent employment taxes from government
           entities. We ascertained any barriers encountered when attempting to assist in
           resolving government entity delinquencies as well as any new initiatives/best
           practices.
        B. Reviewed actions taken by the Office of the CFO in Fiscal Years 2005 and 2006 to
           assist in the resolution of government entity employment tax delinquencies.




4
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 10
                  Efforts to Collect Delinquent Employment Taxes Owed by
                           Government Entities Could Be Improved



                                                                            Appendix II

                Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Anthony J. Choma, Audit Manager
Seth A. Siegel, Lead Auditor
Robert Beel, Senior Auditor
James S. Mills, Jr., Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 11
                  Efforts to Collect Delinquent Employment Taxes Owed by
                           Government Entities Could Be Improved



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Financial Officer OS:CFO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Campus Compliance Operations, Brookhaven, Small Business/Self-Employed Division
SE:S:CCS:CCO:BR
Chief Council CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 12
     Efforts to Collect Delinquent Employment Taxes Owed by
              Government Entities Could Be Improved



                                                  Appendix IV

Management’s Response to the Draft Report




                                                         Page 13
Efforts to Collect Delinquent Employment Taxes Owed by
         Government Entities Could Be Improved




                                                    Page 14
Efforts to Collect Delinquent Employment Taxes Owed by
         Government Entities Could Be Improved




                                                    Page 15
Efforts to Collect Delinquent Employment Taxes Owed by
         Government Entities Could Be Improved




                                                    Page 16
Efforts to Collect Delinquent Employment Taxes Owed by
         Government Entities Could Be Improved




                                                    Page 17
